OFFICE OF INSPECTOR GENERAL
            Audit Report

Fiscal Year 2013 Financial Statement Audit
         Letter to Management


            Report No. 14-02
            February 20, 2014




RAILROAD RETIREMENT BOARD
                   UNITED STATES RAILROAD RETIREMENT BOARD

                                OFFICE OF INSPECTOR GENERAL



                                                                          February 20, 2014

Michael S. Schwartz
Chairman
U.S. Railroad Retirement Board


The purpose of this letter is to transmit internal control matters that came to our
attention during our fiscal year (FY) 2013 audits of the Railroad Retirement
Board’s (RRB) financial statements.

We have audited the RRB’s general purpose financial statements and issued our
report thereon dated December 5, 2013. We also audited the RRB’s closing
package financial statements and issued our report thereon dated
December 16, 2013. We performed our audit in accordance with U.S. generally
accepted government auditing standards and Office of Management and Budget
(OMB) audit guidance as applicable to the scope of our audit. 1 We have not
considered internal control since we obtained sufficient appropriate audit
evidence to support the general purpose audit opinion on December 5, 2013 and
the closing package audit opinion on December 16, 2013.

During our audits, we noted certain matters involving the RRB’s internal control
structure and its operation that, individually, did not rise to the level of a material
weakness or a significant deficiency, the details of which are presented in the
attached memorandum. We also present the full text of those matters previously
reported as material weaknesses and a significant deficiency in conjunction with
our opinion on the financial statements. However, neither this letter, nor the
attached matters of internal control, modifies our reports dated as of
December 5, 2013 and December 16, 2013, referred to above.

Our observations concerning internal control were presented to responsible
agency management who were offered the opportunity to review and comment
on the draft report. Their responses are also attached.




1
 “Report on the Railroad Retirement Board’s Fiscal Year 2013 Financial Statements,” OIG Report
No. 14-01, December 16, 2013.



844 N RUSH STREET CHICAGO IL 60611-2092                                       Printed on recycled paper
In planning and performing these audits, we considered internal control in order
to determine our auditing procedures for the purpose of issuing our reports on
the RRB’s financial statements and not to provide assurance on internal control.
The maintenance of adequate internal control designed to fulfill the RRB’s control
objectives is the responsibility of management. Because of inherent limitations in
any system of internal control, errors or irregularities may nevertheless occur and
not be detected. Also, controls found to be functioning at a point in time may
later be found deficient because of the performance of those responsible for
applying them. There can be no assurance that controls currently in existence
will prove to be adequate in the future as changes take place in the organization.

Our work was not conducted for the primary purpose of making detailed
recommendations about the RRB’s system of internal control. Had we done so,
other matters might have come to our attention that we would have reported to
you.

We wish to express our appreciation for the many courtesies and cooperation
extended to us during these audits.


                                                Very truly yours,

                                                  Original signed by…

                                                Martin J. Dickman
                                                Inspector General



Attachments

cc: Walter A. Barrows, Labor Member
    Jerome F. Kever, Management Member
    George V. Govan, Chief Financial Officer
    Karl T. Blank, General Counsel
    Georgia C. Blalock, Executive Assistant
    John M. Walter, Chief of Accounting, Budget, and Financial Management
    Martha P. Rico, Secretary to the Board




                                        2
                                      Letter to Management
                                     Matters of Internal Control


                                    Table of Contents
MATERIAL WEAKNESSES
 Information Technology Security - Risk Management Framework ....................... 1
 Information Technology Security - Configuration Management............................ 1



SIGNIFICANT DEFICIENCY
 Budgetary Reporting ............................................................................................. 1


OTHER MATTERS INVOLVING INTERNAL CONTROL
 Errors Caused by Ineffective Controls for Review and Approval .......................... 2

    Voucher Related Errors ................................................................................. 2
    General Ledger Errors ................................................................................... 3
       Recommendations ..................................................................................... 4
       Management’s Response........................................................................... 4

 Errors in Financial Statement Preparation, Closing Package Notes and
 Supporting Schedules........................................................................................... 4

    Financial Statement Preparation.................................................................... 5
    Closing Package Notes.................................................................................. 5
    Supporting Schedules.................................................................................... 5
       Recommendation ....................................................................................... 6

 Internal Controls over Budgetary Reporting ......................................................... 6
       Recommendation ....................................................................................... 7



APPENDICES
 Appendix I - Status of Prior and Current Year Recommendations ....................... 8

 Appendix II - Management’s Response - Bureau of Fiscal Operations ................ 9




                                                        i
                                 Letter to Management
                                Matters of Internal Control


MATERIAL WEAKNESSES

In conjunction with the Office of Inspector General’s (OIG) opinion on the
Railroad Retirement Board’s (RRB) financial statements for the fiscal years (FY)
ended September 30, 2013 and 2012, we reported the following material
weaknesses and significant deficiency. 2

Information Technology Security - Risk Management Framework

During FY 2013, the OIG evaluated the RRB’s information security program
pursuant to the provisions of the Federal Information Security Management Act
of 2002 (FISMA). OIG auditors found that weaknesses regarding the review of
contractor deliverables associated with the risk management framework continue
to be found. Although agency managers are working to strengthen controls,
management action had either not been completed as of the end of the current
reporting period, or had not been in place long enough to permit evaluation.

Information Technology Security - Configuration Management

During FY 2013, the OIG evaluated the RRB’s security configuration
management program pursuant to the provisions of FISMA. OIG auditors found
that weaknesses associated with the configuration management of some agency
systems continue to be found. Although agency managers are working to
remediate these weaknesses, management action had not been completed as of
the end of the current period.

SIGNIFICANT DEFICIENCY

Budgetary Reporting

In FY 2011, we reported a material weakness for budgetary reporting and
recommended that the Bureau of Fiscal Operations (BFO) provide training for the
preparation of the statement of budgetary resources and implement a review
process to ensure the accuracy of calculations, consistency in recorded amounts
and effectiveness of controls. In an effort to address this material weakness,
budgetary training was conducted for various BFO personnel in June 2013.
During FY 2013, the OIG identified a significant improvement in the preparation
of the statement of budgetary resources. Although errors were found, they did
not exceed our materiality threshold. Further corrective action remains to be
taken regarding an improved review process to ensure the accuracy of
calculations, consistency in recorded amounts and effectiveness of controls.




2
 “Report on the Railroad Retirement Board’s Fiscal Year 2013 Financial Statements,” OIG Report
No. 14-01, December 16, 2013.

                                               1
                              Letter to Management
                             Matters of Internal Control


OTHER MATTERS INVOLVING INTERNAL CONTROL

During our audits, we also noted certain other matters involving the RRB’s
internal control structure and its operation. Although these matters do not rise to
the level of a material weakness or significant deficiency, either individually or in
the aggregate, they represent areas in which control weaknesses increase the
risk of error or mishandling.

BFO is responsible for the preparation of the Performance and Accountability
Report and most of the agency’s financial statements. During FY 2013, key
staffing changes occurred in BFO while at the same time, BFO began its
transition from the Federal Financial System to a new financial management
system, the Financial Management Integrated System, which became
operational in FY 2014. As a result, we observed unanticipated financial errors
that, in part, can be attributed to less experienced staff.

The details of our observations and recommendations for corrective action follow.
The full text of management’s responses is presented as Appendix II in this
report.


Errors Caused by Ineffective Controls for Review and Approval

We found numerous errors related to voucher preparation and general ledger
entries. These errors were caused by ineffective internal controls for the review
and approval of vouchers and general ledger entries.
Voucher Related Errors

Vouchers are not always approved by designated officials and voucher
documentation is not always adequate. In addition, vouchers are not always
prepared and approved at the proper time. Numerous errors are summarized
below:

   •   eleven vouchers with a combined total of $5.8 billion were not approved by
       the designated officials;
   •   twelve vouchers with a combined total of $3.4 billion did not have adequate
       support;
   •   four vouchers with a combined total of $390 million did not have adequate
       support and were not approved by the designated officials;
   •   one voucher totaling $1.3 million did not contain evidence of review; and
   •   a transaction for $3.8 billion was prepared and the first level of approval was
       provided prior to completion of the transaction.



                                          2
                              Letter to Management
                             Matters of Internal Control


BFO’s Accounting Procedures Guide requires that only properly approved
vouchers with appropriate supporting documentation be input into the general
ledger and it designates the names or titles for staff authorized to review the
vouchers. Voucher documentation should be complete, accurate and facilitate
tracing the transaction from initiation and authorization, through its processing, to
completion.

According to the U.S. Government Accountability Office Standards for Internal
Control in the Federal Government (GAO Standards), transactions and other
significant events should be authorized and executed only by persons acting
within the scope of their authority. Control activities help to ensure that all
transactions are completely and accurately recorded.

Without adequate supporting documentation and approval by designated
officials, and evidence of completed transactions, there is an increased risk of
financial recording errors which could impact the agency’s financial statements.
General Ledger Errors

Approval of general ledger entries is not always provided by the designated
officials. In addition, general ledger entries are not always timely, complete or
accurate. These errors are summarized below:

   •   entries in the general ledger totaling $1.5 billion were approved by BFO
       staff other than the designated officials;
   •   a portion of an adjusting entry that was included in the June 30, 2013
       balance sheet was not recorded in the general ledger until July 2013 and it
       was not included in BFO's reconciliation with Treasury;
   •   a portion of an entry that should have been recorded in March 2013 was
       not recorded until April 2013; and
   •   a voucher number manually transcribed from the paper based document
       was input incorrectly in the general ledger.

BFO’s Accounting Procedures Guide requires voucher approval in the general
ledger to be provided by the Senior Accountant or the Accounting Officer and
also requires permanent adjusting journal entries to be recorded in the general
ledger. According to GAO Standards, transactions and other significant events
should be authorized and executed only by persons acting within the scope of
their authority. This is the principal means of assuring that only valid transactions
are initiated or entered into. Transactions should be promptly recorded to
maintain their relevance and value to management in controlling operations and
making decisions.




                                          3
                                 Letter to Management
                                Matters of Internal Control


When vouchers are reviewed by less experienced personnel, there is a potential
risk that material misstatements would not be prevented or detected on a timely
basis.

These errors resulted in: (1) a $100,000 discrepancy between the administrative
funds in BFO’s supporting workpapers and BFO's reconciliation with Treasury;
(2) a $3.6 million understatement of benefit payments in the March 2013 general
ledger; and (3) an incorrect audit trail.

Recommendations

We recommend that the Bureau of Fiscal Operations:

    1. strengthen its internal controls over the review and approval process to
       ensure that all vouchers are properly prepared, are only prepared after
       completion of a transaction, have sufficient documentation, and are
       approved by designated officials; and

    2. strengthen its internal controls over the review and approval process to
       ensure that general ledger entries are recorded timely, completely and
       accurately.

Management’s Response

The Bureau of Fiscal Operations concurred and will implement the
recommendations.


Errors in Financial Statement Preparation, Closing Package Notes and
Supporting Schedules

Errors continue to be found in financial statement preparation, agency notes and
supporting schedules. These errors were caused by ineffective internal controls
over financial statement reporting. Similar errors were cited in a prior OIG audit
report and we recommended that BFO:

           determine the cause of errors identified during our
           audit, whether existing controls were in operation, and
           whether additional controls may be required to ensure
           the financial statements, notes, and supporting
           schedules are properly designed and operating as
           intended throughout the year. 3



3
 “Fiscal Year 2007 Financial Statement Audit Letter to Management,” OIG Report No. 08-01,
March 6, 2008, Recommendation No. 9.

                                               4
                             Letter to Management
                            Matters of Internal Control


In response to this recommendation, BFO created a checklist to address the
preparation of the financial statements and selected notes, and revised a
supporting schedule. We found that this corrective action was not sufficient and
as a result, that audit recommendation remains open.

Financial Statement Preparation

Financial statements are not always prepared accurately. BFO omitted two new
lines and additional captions from the September 30, 2013 balance sheet.

Preparers of the Performance and Accountability Report are required to review
updated authoritative guidance, which includes OMB Circular No. A-136,
Financial Reporting Requirements. The new lines and additional captions were
required by the October 2013 version of the OMB guidance.

Financial statements not prepared in accordance with applicable guidance
substantially increase the risk of inaccurate financial reporting and
noncompliance with required reporting standards.
Closing Package Notes

Closing package notes, prepared for governmentwide reporting, are not always
accurate. Various notes entered into the Governmentwide Financial Report
System contained errors in text and financial balances that totaled more than
$618 million.

Treasury Financial Manual Chapter 4700 provides guidance for the notes portion
of the closing package. The manual provides specific guidance for the
presentation of balances for dedicated collections. The presentation
consolidates balances from various financial statement lines, and therefore
requires recomputation of amounts that include assets, liabilities, revenue and
expenses.

These errors resulted in additional review and coordination, which impacted the
efficiency of the audit, and they could have impacted the accuracy of data
consolidated into the governmentwide financial statement notes.

Supporting Schedules

Financial statement adjusting and eliminating entries are not always properly
prepared, properly approved, or approved in a timely manner. Numerous errors
are summarized below:

   •   one voucher adjustment entry with a total of $141 million was not properly
       prepared based on supporting documentation;
   •   four adjusting entries had no evidence of approval;

                                         5
                                 Letter to Management
                                Matters of Internal Control


    •   five adjusting entries had no support and no evidence of approval;
    •   one eliminating entry had incorrect debit and credit amounts; and
    •   ten eliminating entries were approved after they were recorded in the
        financial statements.

BFO’s Accounting Procedures Guide requires individuals preparing adjusting
entries to enter them in the supporting worksheet along with their initials and
date. Approval is to be provided by the Accounting Officer. Eliminating entries
should flow through the financial statements vertically and horizontally and the
signs (+/-) must agree with the supporting BFO worksheet. Reviewers of
vouchers are required to look for correctness, completeness, and consistency. In
addition, only properly approved vouchers with appropriate supporting
documentation should be recorded in the general ledger.

Transactions not properly prepared, approved or approved prior to being
recorded in the financial statements, substantially increase the risk that
misstatements will not be prevented, detected or corrected.

Recommendation

Agency action to implement a prior recommendation for corrective action is
pending; the OIG has no additional recommendations to offer at this time.


Internal Controls over Budgetary Reporting

The internal controls over budgetary reporting still require improvement. We
found an error of $16 million in the June 30, 2013 Statement of Budgetary
Resources (SBR). There were also errors of $34 million and line captions errors
in the September 30, 2013 SBR and the related notes. Similar errors were cited
in a prior OIG audit report and we recommended that BFO:

           implement a review process for the Statement of
           Budgetary Resources to ensure the accuracy of
           calculations, consistency in recorded amounts, and
           effectiveness of controls. 4

According to GAO Standards, control activities help to ensure that all
transactions are completely and accurately recorded. Authoritative guidance
provided in Treasury’s United States Standard General Ledger and OMB Circular
No. A-136, detail the presentation and content of the financial statements,
including the SBR.


4
 “Fiscal Year 2011 Financial Statement Audit Letter to Management,” OIG Report No. 12-04,
January 31, 2012, Recommendation No. 2.

                                               6
                            Letter to Management
                           Matters of Internal Control


The review and approval process for the SBR is not effective. The errors we
identified would have impacted the accuracy and form and content of the
financial statements. The errors in the September 30, 2013 SBR were corrected
prior to publication.

Recommendation

Agency action to implement a prior recommendation for corrective action is
pending; the OIG has no additional recommendations to offer at this time.




                                       7
                                                                      Appendix I




            Status of Prior and Current Year Recommendations

We have reviewed the implementation of recommendations resulting from prior
audits of the RRB’s financial statements. The table below presents a summary
of the status of recommendations that were pending when we issued our “Letter
to Management” dated January 28, 2013, in connection with our audit of the
RRB’s FY 2012 financial statements. The additional recommendations resulting
from our audit of the agency’s FY 2013 financial statements are also included.

                                      Report and             Current Status
                                      Recommendation                       In
Bureau                                Number            Implemented     Progress
BUREAU OF FISCAL OPERATIONS           08-01 #9                              X
                                      10-03 #2               X
                                      10-03 #3               X
                                      10-03 #4               X
                                      11-03 #1               X
                                      11-03 #2               X
                                      12-04 #1               X
                                      12-04 #2                              X
                                      12-04 #6                              X
                                      13-03 #1               X
                                      13-03 #2               X
                                      13-03 #3               X
                                      13-03 #4               X
                                      14-02 #1                              X
                                      14-02 #2                              X

BUREAU OF ACTUARY                     09-02   #9                           X
                                      09-02   #10                          X
                                      12-04   #3                           X
                                      12-04   #4                           X
                                      12-04   #5                           X

OFFICE OF PROGRAMS                    09-02 #12                            X
                                      09-02 #13                            X

OFFICE OF GENERAL COUNSEL             13-03 #5                             X

           TOTALS                                            10           13




                                       8
                                                                            Appendix II


                 U~ITED STATES GO VERNMENT                                          FDBM G-1151 [1 -821
                                                                   R AILROAD RETIREMENT BOARD
                 MEMORANDUM
                                                                        February 18, 2014


TO         :   Diana Kruel
               Assistant Inspector General for Audit


FROM           George V. Govan           GEORGE -::~::,.,. ·-
               Chief Financial Officer   GOVAN     :f :: .:·.::-



SUBJECT:       Draft Letter to Management- FY 2013 Financial Statement Aud it


Below are responses to recommendations for Bureau of Fiscal Operations identified in
the draft audit report. Note, in fiscal year 2013, the Accounting section experienced
significant turnover in key positions where corporate knowledge and continuity on
voucher processing once existed. To date, the majority of vacant positions are filled
and a training plan will be created and implemented to reinforce internal controls on a
recurring basis.

We recommend that the Bureau of Fiscal Operations:

     1. strengthen its internal controls over the review and approval process to
        ensure that all vouchers are properly prepared, are only prepared after
        completion of a transaction, have sufficient documentation, and are
        approved by designated officials.

        Concur. We will strengthen our internal controls over the review and approval
        process for vouchers.

        Target Completion Date: September 30, 2014


     2. strengthen its internal controls over the review and approval process to
        ensure that general/edger entries are recorded timely, completely and
        accurately.

        Concur. We will strengthen our internal controls over the review and approval
        process to ensure that general ledger entries are recorded timely, completely and
        accurately.

        Target Completion Date: September 30, 2014




                                              9
                                                                    Appendix II


                                             -2-


If there is any additional information you need , please forward.


cc: John Walter, Chief of ABFM
    Rich Lannin , Senior Accountant
    Herbert Kwan , Accountant
    Ralph Brandt, Accountant
    Debra Stringfellow-Wheat, Supervisory Auditor




                                        10
